<html>
<title> - HUMAN TRAFFICKING INVESTIGATION</title>
<body><pre>[Senate Hearing 114-179]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-179

                    HUMAN TRAFFICKING INVESTIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2015

                               __________

         Available via the World Wide Web: http://www.fdsys.gov
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
                           U.S. GOVERNMENT PUBLISHING OFFICE
98-445PDF                       WASHINGTON : 2016                           
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3750475877544244435f525b471954585a19">[email&#160;protected]</a>  
       
        
        
          
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
KELLY AYOTTE, New Hampshire          HEIDI HEITKAMP, North Dakota
BEN SASSE, Nebraska

           Brian Callanan, Staff Director and General Counsel
        Margaret Daum, Minority Staff Director and Chief Counsel
                       Kelsey Stroud, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator McCaskill............................................     4
    Senator McCain...............................................    14
    Senator Heitkamp.............................................    16
    Senator Lankford.............................................    17
    Senator Ayotte...............................................    20
Prepared statements:
    Senator Portman..............................................    31
    Senator McCaskill............................................    35

                               WITNESSES
                      Thursday, November 19, 2015

Yiota G. Souras, Senior Vice President and General Counsel, The 
  National Center for Missing and Exploited Children.............     7
Darwin P. Roberts, Deputy Attorney General, The Washington State 
  Attorney General's Office......................................     9

                     Alphabetical List of Witnesses

Roberts, Darwin P.:
    Testimony....................................................     9
    Prepared statement...........................................    48
Souras, Yiota G.:
    Testimony....................................................     7
    Prepared statement...........................................    38

                                APPENDIX

Staff Report.....................................................    53
Statements submitted for the Record:
    A. Brant Cook, Director, Crimes Against Children Initiative, 
      Office of Ohio Attorney General Mike DeWine................   249
    Karen Friedman-Agnifilo, Chief Assistant District Attorney, 
      New York County District Attorney's Office.................   253

 
                    HUMAN TRAFFICKING INVESTIGATION

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2015

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, McCain, Lankford, Ayotte, Sasse, 
McCaskill, Tester, and Heitkamp.
    Staff present: Mark Angehr, Mel Beras, Eric Bursch, Brian 
Callanan, Mark Iaskowitz, John Cuaderes, Margaret Daum, Liam 
Forsythe, Stephanie Hall, Crystal Higgins, John Kashuba, Amanda 
Montee, Victoria Muth, Brandon Reavis, Brittney Sadler, Sarah 
Seitz, Molly Sherlock, Kelsey Stroud, Matt Owen, Andrew 
Polesovsky, Stuart Varvel, Thomas Caballero, Myles Matteson, 
Samantha Roberts, and Chris Barkley.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. OK. Thank you all for being here this 
morning. We were waiting until all the documents were 
circulated. This hearing will now come to order.
    Senator McCaskill and I have called this hearing to address 
the difficult but really important subject of sex trafficking. 
Over the past 7 months, this Subcommittee has conducted a 
bipartisan investigation into how sex traffickers increasingly 
use the Internet to advance their trade and to evade detection. 
The aim of this investigation is very straightforward. We want 
to understand how lawmakers, law enforcement, even private 
businesses can more effectively combat this serious crime that 
thrives on this online black market.
    As Co-Chair of the Senate Caucus to End Human Trafficking 
and, maybe more importantly, as someone who represents a State 
that has experienced some abhorrent sex-trafficking networks, 
and, maybe most importantly, as a father, this is an issue that 
I feel strongly about and have worked on over a number of 
years.
    I have spent time with those dedicated to fighting this 
crime and those victimized by it. For victims, the toll of sex 
trafficking is measured in stolen childhoods and long-lasting 
trauma. For traffickers, it is measured in dollars, often a lot 
of dollars. It is a problem that I believe Congress should pay 
more attention to.
    Precise data is hard to come by because this market exists 
in the shadows. But experts tell us that there were as many as 
27 million victims of human trafficking last year, including 
4.5 million people trapped in sexual exploitation. In the 
United States, about 8 of every 10 suspected incidents of human 
trafficking involve sex trafficking--80 percent--that is, the 
sale of minors or forced sale of adults for commercial sex.
    Sex traffickers prey on the vulnerable. The Department of 
Justice (DOJ) has reported that more than half of sex-
trafficking victims are minors, and the problem appears to be 
getting worse. Over the last 5 years, the leading authority on 
child exploitation, the National Center for Missing and 
Exploited Children (NCMEC), whom we will hear from later today, 
reported an 846-percent increase in reports of suspected child 
sex trafficking. NCMEC says that increase is ``directly 
correlated to the increased use of the Internet to sell 
children for sex.'' That is what this hearing is all about.
    Traffickers have found refuge in new customers through 
websites that specialize in advertising so-called ordinary 
prostitution and lawful escort businesses. A business called 
``Backpage.com'' is the market leader in that industry, with 
annual revenues in excess of $130 million last year. With a 
look and layout similar to the better known Craigslist.com, 
Backpage has a special niche. According to one industry 
analysis in 2013, $8 out of every $10 spent on online 
commercial sex advertising in the United States goes to 
Backpage. Some of that advertising is legal work. Much of it is 
illegal. A Federal court in Chicago noted this year, from that 
Backpage's ``adult services section overwhelmingly contains 
advertisements for prostitution, including the prostitution of 
minors.''
    The public record indicates that Backpage sits at the 
center of this online black market for sex trafficking. The 
National Center tells us that Backpage is linked to 71 percent 
of all suspected child sex-trafficking reports it receives from 
the general public through its CyberTipline. So think about 
that: 71 percent of all the suspected child sex-trafficking 
reports that the center gets are related to Backpage.
    According to a leading anti-trafficking organization called 
Shared Hope International, ``Service providers working with 
sex-trafficking victims have reported that between 80 percent 
and 100 percent of their clients have been bought and sold on 
Backpage.com.'' It is easy to see why the National Association 
of Attorneys General (NAAG) describe Backpage as a ``hub of 
human trafficking, especially the trafficking of minors.'' And 
we will hear more about that today.
    A recent study of press accounts reveals that scores of 
serious crimes are linked to Backpage. Shared Hope 
International has catalogued more than 400 reported cases of 
children being trafficked using Backpage.com across 47 States, 
and the Permanent Subcommittee on Investigations (PSI) staff 
has identified at least 13 reported cases of child sex 
trafficking in my home State of Ohio alone linked to Backpage 
over the past 4 years.
    On this record, PSI saw a compelling need to better 
understand the business practices of Backpage.com, especially 
the efforts it takes to prevent the use of its site by sex 
traffickers. That seems very reasonable. We thought it might be 
simple enough because Backpage holds itself out as a ``critical 
ally'' against human trafficking. The company has stated that 
is ``leads the industry in its review and screening of 
advertisements for illegal activity,'' a process it calls 
``moderation.''
    Backpage's top lawyer has described its moderation process 
as ``the key tool for disrupting and eventually ending human 
trafficking via the World Wide Web.'' But Backpage has refused 
to turn over documents about this key moderation process that 
it touts, as well as other relevant aspects of its business.
    Specifically, the company refused to comply with an initial 
subpoena issued by the Subcommittee on July 7, saying that it 
was overbroad. Senator McCaskill and I then agreed to withdraw 
that subpoena and issue a new, more targeted subpoena designed 
to accommodate some of Backpage's concerns, but the company 
again refused to comply.
    Defiance of a Congressional subpoena is rare and it is 
serious. Backpage has tried to excuse its noncompliance based 
on its sweeping claim of constitutional privilege. The 
company's argument is vague, but it can be summed up this way: 
Backpage says that the First Amendment to the Constitution 
shields it from this investigation of advertising by sex 
traffickers because it also publishes some lawful 
advertisements that are protected speech.
    It is an interesting argument. It has no support in law or 
logic. In a detailed ruling on behalf of the Subcommittee, 
Senator McCaskill and I explained why Backpage's legal argument 
is without merit. We also explained the great care that PSI has 
taken to protect any potential First Amendment interest at 
stake here. We have made that ruling publicly available today 
on PSI's website, and I encourage you to take a look at it.
    After overruling Backpage's objections, Senator McCaskill 
and I ordered the company and its Chief Executive Officer (CEO) 
to produce the documents we asked for by last Thursday, 
November 12. That day came and went with no response. The next 
day, Backpage again informed PSI that it would not comply. But 
at the same time, Backpage made quite a show of producing 
certain cherry-picked documents favorable to the company, along 
with a 16,000-page pile of material and documents that the 
Subcommittee does not need and is not seeking.
    We do not think Backpage's response to the subpoena has 
been in good faith. It is fine for parties to have legal 
disagreements with us about constitutional privileges or the 
appropriateness of particular requests. We treat these 
objections very seriously. But Backpage has done more than just 
raise a legal objection to producing certain documents. Just 
last week, Backpage's lawyers told PSI that the company had not 
even bothered to look for the documents responsive to the 
subpoena which means Backpage does not even know what all it is 
refusing to produce, much less why these documents should be 
protected by the First Amendment.
    PSI was disappointed with Backpage's noncompliance, but we 
were not deterred. Through other sources, including a 
contractor that Backpage outsourced its ad screening process 
to, we sought to learn more about the issues under 
investigation. In a bipartisan staff report released today, we 
have outlined some preliminary findings and further questions 
that need answers. The report reveals that Backpage has had a 
practice of editing some advertisements by deleting words and 
images before publication. This is important because changing 
the appearance of a published ad obviously does not change the 
advertised transaction.
    The staff report finds that in some cases these editing 
practices likely serve to conceal evidence of the illegality of 
the underlying transaction. That finding raises some very 
serious questions. We want to know more about the purpose and 
effect of these editing practices, which is why we issued a 
subpoena to Backpage for documents that could tell us whether 
and how Backpage deletes text or images that could alert law 
enforcement about a crime being advertised. When that failed, 
the Subcommittee tried to take the testimony of two Backpage 
employees in charge of its moderation practices, but they 
refused to testify on the grounds that it might incriminate 
them. Nevertheless, we continue to seek documents from Backpage 
that would allow us to understand this and other aspects of its 
screening process.
    In a moment, Senator McCaskill is going to describe our 
other findings in greater detail. At the close of today's 
hearing, we will address the next steps the Subcommittee plans 
to take to enforce the subpoena that Backpage has violated.
    I am grateful to our Ranking Member, Senator McCaskill, and 
her staff for their shoulder-to-shoulder work with us on this 
bipartisan investigation. I would now like to turn to her for 
her opening statement.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Chairman Portman, for holding 
this hearing, and thank you for the strong working relationship 
we have on this Committee.
    Four months ago, a 15-year-old girl walked into Cardinal 
Glennon Children's Hospital in St. Louis, Missouri, and asked 
for help. Along with four other girls between the ages of 12 
and 18, she had been sold for sex at truck stops across 
Missouri, Florida, Texas, and New Mexico for almost 2 months. 
She was lucky to be alive. According to her police report, 
another girl traveling with her during those months had died in 
her arms.
    The 15-year-old girl who walked into Cardinal Glennon, like 
the majority of children who are sold for sex in the United 
States today, was trafficked using Backpage.com. Throughout the 
Subcommittee's investigation, we have received information 
indicating that Backpage has built a hugely successful business 
in part by posting advertisements of children and other victims 
of human trafficking on its website. And despite knowing that 
its website has hosted advertisements of children being sold 
for sex, Backpage has apparently signaled to its moderators 
that those ads should remain on the site.
    In April 2012, for example, Backpage initially told its 
outside moderators that they should ``fail'' or remove ads 
containing references to certain sex acts and words, including 
``school girl,'' ``teen,'' ``human trafficking,'' and ``yung.''
    Two days later, Backpage reversed that policy. The employee 
responsible for moderation issued clarifications regarding the 
banned words. He instructed that moderators should no longer 
delete ads that use ``young'' or misspellings of ``young.'' 
Those deletions were capturing too much volume, he explained, 
because there were too many legitimate uses of the word to 
warrant a removal every time. Instead of deleting 
advertisements for services with ``young,'' the Backpage 
employee instructed moderators to send the ads to him for 
additional review.
    We do not know how many, if any, ads were removed following 
that additional review. We do know that Backpage instructed its 
moderators to be very cautious about deleting ads. According to 
the manager of the moderators, ``The definition of underage is 
anyone under the age of 18. But for the purposes of making 
reports, we err on the side of caution and try to report anyone 
that looks under the age of 21.'' Importantly, guidance from 
Backpage emphasized, in all capital letters, ``IF IN DOUBT 
ABOUT UNDERAGE: the process for now should be to accept the 
ad,'' and ``ONLY DELETE IF YOU REALLY VERY SURE PERSON IS 
UNDERAGE.'' That was in all caps.
    The result of Backpage's guidance of course, is the site 
contains innumerable advertisements for sexual transactions 
with children. The National Center for Mission and Exploited 
Children, for example, reports that 71 percent of the child 
sex-trafficking reports it receives involve ads posted on 
Backpage. And according to Shared Hope International, service 
providers working with child sex-trafficking victims have 
reported that between 80 percent and 100 percent of their 
clients have been bought and sold on Backpage.com.
    We have also learned that Backpage has failed to preserve 
information that would help law enforcement and other entities 
locate victims and put pimps and traffickers in jail. Backpage 
has also failed to implement other free, widely available 
technologies that have helped law enforcement build cases 
against suspected sex traffickers. Moreover, Backpage 
representatives and third-party consultants have informed the 
Subcommittee that Backpage moderators edit and delete content 
in ads in ways that may conceal evidence of illegal activity 
from law enforcement.
    The Subcommittee has also found that Backpage's business 
model has been highly profitable. Based on information obtained 
by the Subcommittee, Backpage had net revenue of $135 million 
in 2014 and is expected to net more than $153 million this 
year--nearly all of it profit. The company's fair market value, 
taking into account its lack of marketability, is approximately 
$430 million. As a former sex crimes prosecutor, I know that 
behind these cold financial statistics are survivors 
traumatized from abuse and degradation and families suffering 
through years of terror and uncertainty concerning the fate of 
their loved ones.
    Today I hope to hear from our first witnesses about the 
impact of Backpage on the efforts of law enforcement officials 
and advocacy groups to curb sex trafficking in the United 
States. I am confident that their testimony will make clear the 
importance of Subcommittee efforts to press Backpage for 
information on its operations and procedures.
    I also hope that we will at some future date finally have 
the opportunity to question Backpage CEO Carl Ferrer who 
received a subpoena to appear before the Subcommittee today but 
has refused to attend. I have many questions for him.
    I thank the witnesses for being here today, and I look 
forward to their testimony.
    Senator Portman. Thank you, Senator McCaskill, and thank 
you for your partnership in this investigation.
    Senator McCaskill mentioned the report. Without objection, 
the staff report\1\ and some associated correspondence are 
ordered to become part of the record.
---------------------------------------------------------------------------
    \1\ The Majority Staff Report appears in the Appendix on page 53.
---------------------------------------------------------------------------
    Senator Portman. With this, we are going to turn to our 
first panel of witnesses and then have the opportunity for 
Members to ask questions.
    We are pleased to be joined by Yiota Souras. Yiota is 
Senior Vice President and General Counsel (GC) of the National 
Center for Missing and Exploited Children, the group we have 
been talking about, the Nation's leading authority and resource 
on issues related to missing and sexually exploited children. 
For over 30 years, NCMEC has provided valuable services to law 
enforcement and the criminal justice community with the goal of 
eliminating child sexual exploitation and reuniting families. 
It has assisted law enforcement in recovering over 200,000 
missing children, including assisting with the rescue of a 
missing child in Cleveland, Ohio, just earlier this month. We 
appreciate what you do.
    I am also honored to have with us today the founder of 
NCMEC. Many of you know John Walsh, who is here with us in the 
room this morning, who has been a good adviser to me and to 
this Subcommittee.
    We are also pleased to be joined by Darwin Roberts. Darwin 
is the Deputy Attorney General with the Washington State 
Attorney General's Office where he supervises the Criminal 
Justice Division, among other units, and is the office's lead 
attorney for human-trafficking issues. The State of Washington 
has been recognized as a leader in its efforts to combat human 
trafficking due in large part to the work of the State AG's 
Office. The Polaris Project, a highly regarded national anti-
trafficking organization, gave Washington the highest ranking 
for its anti-trafficking efforts last year. From 2005 to 2013, 
Mr. Roberts also served as an Assistant U.S. Attorney.
    We appreciate both of you being here this morning. We look 
forward to your testimony.
    Without objection, we are also going to make part of the 
record the written testimony submitted by Brant Cook,\2\ who is 
the Director of Ohio Attorney General Mike DeWine's Crimes 
Against Children Initiative. Ohio has also been at the 
forefront of this issue under the leadership of former Senator 
Mike DeWine.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Cook appears in the Appendix on 
page 249.
---------------------------------------------------------------------------
    Senator Portman. We are also going to, without objection, 
make part of the record the testimony of the Chief Assistant 
District Attorney for Manhattan\3\, who has also been engaged 
and involved in this issue with us and the Subcommittee.
---------------------------------------------------------------------------
    \3\  The prepared statement of Ms. Friedman-Agnifilo appears in the 
Appendix on page 253.
---------------------------------------------------------------------------
    Senator Portman. To the witnesses, it is the custom of this 
Subcommittee to swear in all witnesses, so at this time I would 
ask you both to please stand and raise your right hand. Do you 
swear that the testimony you are about to give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Souras. I do.
    Mr. Roberts. I do.
    Senator Portman. Let the record reflect the witnesses 
answered in the affirmative. All of your written testimony will 
be printed in the record in its entirety. We ask that you try 
to limit your oral testimony to 5 minutes.
    Ms. Souras, we will hear from you first.

  TESTIMONY OF YIOTA G. SOURAS,\1\ SENIOR VICE PRESIDENT AND 
GENERAL COUNSEL, THE NATIONAL CENTER FOR MISSING AND EXPLOITED 
                            CHILDREN

    Ms. Souras. Thank you. Chairman Portman, Ranking Member 
McCaskill, and Members of the Subcommittee, I am pleased to be 
here this morning on behalf of the National Center for Missing 
and Exploited Children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Souras appears in the Appendix on 
page 38
---------------------------------------------------------------------------
    Let me take a moment to thank you for your efforts to 
investigate the crime of child sex trafficking and potential 
solutions to combat this horrible crime. I am joined today by 
NCMEC's co-founder, John Walsh, and our incoming CEO, John 
Clark, former Director of the U.S. Marshals, who are here with 
me to underscore NCMEC's support for the Committee's work and 
our dedication to preventing child sex trafficking and 
assisting survivors and their families.
    We are here to talk about the online lucrative sale of 
America's children for sex, which in our experience occurs most 
prominently on the website Backpage.com. Every year in the 
United States, thousands of children are sold for sex and 
repeatedly raped. Child sex trafficking victims are boys, 
transgender children, and girls. We see victims as young as 11 
years old, with an average age of 15. Many of these children 
are moved constantly from city to city, sold for sex up to 10 
times a day, and tattooed by their traffickers, literally 
branded for life.
    Child sex trafficking is the rape of a child in exchange 
for something of value. Buying, selling, or facilitating the 
sale of a child for sex is always illegal. Child sex 
trafficking is not prostitution, and it has no relation to 
legal sexual activities between consenting adults. When NCMEC 
talks about child sex trafficking, we are talking about illegal 
activity that is not protected by the First Amendment.
    Technology has fundamentally changed how children are 
trafficked. Today an adult can shop from their home, office, or 
hotel room, even on a cell phone, to buy a child for sex. There 
are advertising websites, notably Backpage, that are online 
marketplaces to buy and sell sexual experiences. Some may be 
legal, but most are not.
    NCMEC operates the CyberTipline, the Nation's reporting 
mechanism for suspected child sexual exploitation. Since 1998, 
we have received over 45,000 reports relating to suspected 
child sex trafficking. A majority of these reports involve ads 
posted on Backpage.
    In our experience, child sex trafficking often begins with 
a missing child. So far this year, more than 1,800 missing 
child cases reported to NCMEC have involved possible child sex 
trafficking. Because there are so many child sex-trafficking 
ads on Backpage, our staff search Backpage first when a missing 
child is at risk for being trafficked.
    At NCMEC, we routinely work with online companies to help 
them make sure their websites are not misused to harm children. 
We met with Backpage at their request after they started 
voluntarily reporting some ads to us in 2010. During this time, 
Backpage publicly represented that it wanted to do everything 
possible to stop child sexual exploitation on its website.
    At our last meeting, in 2013, Backpage was frustrated with 
NCMEC for not promoting their asserted efforts to curb child 
sex trafficking. We have not met with Backpage again because it 
seemed they were more interested in trying to publicly claim a 
partnership with NCMEC on these issues rather than reducing the 
sale of children on their website.
    During our meetings with Backpage, we recommended many 
steps they could take to reduce the possibility children would 
be sold for sex on their website. Backpage declined to adopt 
most of these recommended measures. Here are just two examples.
    Backpage does not consistently remove ads it has reported 
to NCMEC, even when the ad is reported by a family member of 
the child, begging for assistance. Here is a report and what 
one Mom and Dad wrote to Backpage: ``Your website has ads 
featuring our 16-year-old daughter . . . posing as an escort. 
She is being pimped out by her old boyfriend, and she is 
underage. I have emailed the ad multiple times using your 
website, but have gotten no response. . . . For God's sake, she 
is only 16.''
    We raised this issue repeatedly during our meetings with 
Backpage, but were never told why some ads remained live on the 
site after being reported.
    Backpage also has more stringent rules to post an ad to 
sell a pet, a motorcycle, or a boat. For these ads, you are 
required to provide a verified phone number. Even though 
Backpage knows its site is used for child sex trafficking and 
after our repeated recommendations, Backpage still has not 
implemented any form of verification to post an escort ad.
    Today Backpage still voluntarily reports some child sex-
trafficking to NCMEC, but they have not taken basic measures to 
disrupt the online marketplace of sex trafficking they have 
created.
    There is no reason to believe suspected child sex-
trafficking ads on Backpage have decreased. However, Backpage's 
number of reports this year has shrunk to less than half the 
number of reports in 2013, the same year we had our last 
meeting and the same year NCMEC filed an amicus brief in 
support of child victims in the lawsuit against Backpage.
    Before I close, I would like to acknowledge the tremendous 
efforts of many other advocacy groups, many of whom are here in 
the room today, and the attorneys who are working on civil 
court cases in Massachusetts and Washington to end the 
devastating online business of selling children for sex on 
websites like Backpage.
    Mr. Chairman and other Members, I thank you for the chance 
to share this information regarding child sex trafficking and 
Backpage, and I am happy to answer any questions you may have.
    Senator Portman. Thank you, Ms. Souras.
    Mr. Roberts, we would now like to hear from you.

TESTIMONY OF DARWIN P. ROBERTS,\1\ DEPUTY ATTORNEY GENERAL, THE 
           WASHINGTON STATE ATTORNEY GENERAL'S OFFICE

    Mr. Roberts. Good morning, Chairman Portman, Ranking Member 
McCaskill, and Members of the Subcommittee. Thank you for the 
opportunity to appear here today. I am appearing on behalf of 
Attorney General Bob Ferguson, who appreciates the invitation 
and regrets that he was not able to come here in person.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roberts appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    I am proud to be here representing Washington State, which 
has been recognized as a leader among the States in fighting 
human trafficking at the State level. We were the first State 
to make it a crime to commit human trafficking at the State 
level, and, of course, our State definition of ``human 
trafficking'' matches the Federal in that the use of force, 
fraud, or coercion for forced labor, involuntary servitude, or 
commercial sex acts is classified as human trafficking. And, of 
course, the commercial sexual abuse of a minor is any use of a 
minor in a commercial sex act, because minors are recognized as 
not being able to consent legally to engage in any sort of sex 
act with an adult, much less a commercial one.
    While we appreciate the Chairman's credit to the Attorney 
General's office for the work we have done, I think I would be 
remiss if I did not emphasize that we have an entire community 
of folks doing really good work in Washington State, and if it 
were not for all of our partners in law enforcement, the 
nonprofit community, and other government agencies, we would 
not be close to where we are today.
    Washington has had the experience of becoming involved in 
litigation with Backpage.com in the course of our efforts to 
prevent the use of the Internet for human trafficking and the 
commercial sexual exploitation of children. In 2012, the State 
of Washington passed a law that aimed to criminally punish any 
person who, using the Internet, ``knowingly publishes, 
disseminates, or displays, or causes directly or indirectly to 
be published, disseminated, or displayed any advertisement for 
a commercial sex act which is to take place in the State of 
Washington, and that includes the depiction of a minor.''
    Backpage.com led a challenge to this law before it could be 
implemented. The Attorney General's office attempted to defend 
the law in court, but the U.S. District Court in Seattle ruled 
that the law would be enjoined on the grounds that it was 
unconstitutionally vague under the First Amendment and also 
likely preempted by the Communications Decency Act (CDA).
    Almost simultaneously with this ruling by the U.S. District 
Court, though, a lawsuit was filed in Washington Superior Court 
in Pierce County Tacoma alleging that Backpage, in fact, had 
done more than just be a site that hosted the posting of ads, 
as they claimed in order to invoke their immunity under the 
Communications Decency Act. In that case, several minors who 
alleged that they were, in fact, prostituted using Backpage.com 
sued, alleging that Backpage had essentially, by several means, 
including making themselves a market leader--in other words, 
the go-to site for online prostitution ads--by using terms like 
``escorts,'' euphemisms widely recognized as telling consumers 
that prostitution is the kind of service that they could 
purchase on this website, and by using what the plaintiffs 
terms ``sham efforts at self-policing'' to allegedly try to 
keep ads for underage individuals off the site, that by doing 
this Backpage.com had moved beyond the mere facilitation or 
posting of the ads and, in fact, itself was materially 
contributing to the use of its site to sell minors for sex.
    Our Attorney General's office filed an amicus brief in 
support of these plaintiffs when their case went to the 
Washington Supreme Court, and on the posture of the Backpage's 
initial motion to dismiss, we argued that, in fact, the 
plaintiffs should be allowed to conduct discovery to determine 
whether Backpage was materially contributing as the plaintiffs 
alleged. The Washington Supreme Court this fall ruled in favor 
of the plaintiffs, and that case is now proceeding to 
discovery.
    We are aware that in the court of this litigation and 
others, Backpage.com has repeatedly asserted that law 
enforcement is best helped if Backpage remains open as a 
website for the posting of adult services-type ads and works 
with law enforcement, as they put it, to try to prevent minors 
from being trafficked using their site. These commitments sound 
positive as stated by Backpage, but the Washington State 
Attorney General's office and others is not at all certain 
whether these commitments are at all sufficient to do the kind 
of work necessary to prevent individuals from being trafficked 
on the site.
    During this entire period, even as Backpage has said this, 
there have been repeated, numerous instances of children being 
trafficked on Backpage, as Ms. Souras just cited. So the 
question for the Attorney General's office is: What is Backpage 
doing? What are their goals? How effective are their 
techniques? Are they doing everything they can? Is there more 
they could be doing? What are the costs of their compliance to 
them internally relative to the significant revenues, as the 
Subcommittee cited, that they are making off these ads?
    So for all of those reasons, the Washington State Attorney 
General's office hopes that Backpage.com will respond to the 
Subcommittee's subpoena and will shed more light on how exactly 
it claims to be working to prevent the sex trafficking of 
minors.
    Thank you, and I would be happy to answer any questions as 
well.
    Senator Portman. Thank you, Mr. Roberts. I appreciate both 
of you for your testimony. Your perspective is really valuable 
to the Subcommittee, and I think we are going to have some very 
interesting dialogue now.
    We are going to begin with 5-minute question rounds so that 
every member has got an opportunity, and we will go as many 
rounds as necessary to get the questions answered.
    I would like to start with just making the statement that 
it appears from what both of you have said that technology has 
fundamentally changed the way children can be victimized 
through sex trafficking. That is the fundamental truth that we 
are hearing here, and it is something the Subcommittee 
certainly found, and you can see that in our report.
    Ms. Souras, let me start with you. I, as you know, have 
deep concerns about this notion of editing advertisements, and 
we have had in our report, as you will see, some evidence of 
that. Let me ask you first, how prevalent are advertisements 
for sexual exploitation of minors on Backpage.com in your 
experience?
    Ms. Souras. Mr. Chairman, as I testified to a few moments 
ago, Backpage actually is the first place that NCMEC searches 
when we have a missing child case where there is suspicion that 
the child is being trafficked. That is because even though the 
child may also have a trafficking ad on another site, they will 
always have a trafficking ad on Backpage if they are being 
trafficked. So between that and then the numbers of reports 
that we have received, as I mentioned, over 45,000 reports of 
child sex trafficking, with a predominant number of those 
either from the public or otherwise being reported on Backpage 
ads, it is clear to NCMEC that Backpage really is the primary 
marketplace online for these ads.
    Senator Portman. You said over 70 percent of all suspected 
child sex-trafficking reports that you receive on your 
CyberTipline are related to Backpage?
    Ms. Souras. From the public, that is correct.
    Senator Portman. Amazing. On the subject of underage 
victims, I want to turn your attention now to one of the many 
emails our investigation has uncovered. This email is from the 
company that Backpage used to outsource the job of screening 
its advertisements. It is a process, as I said earlier, that 
Backpage calls ``moderation.'' In the email, that company 
instructs moderators who had the job of reviewing and editing 
the ads, including how to handle ads for victims that look 
underage, the ad instructs moderators--and I have got this 
here. You can find it, by the way, if you want to look in the 
appendix to the report on page 122.
    The email instructs moderators that if they are in doubt 
about underage, the process should be to accept the ad. The 
process should be to accept the ad if you are in doubt.
    It also cautions moderators that they should ``only delete 
[ads] if you [are] really sure [the] person is underage.'' It 
seems to me there is a bias there, but let me ask you, Ms. 
Souras: Does it sound like instructions a company would give if 
it was really concerned about everything it could do to keep 
kids off the Internet?
    Ms. Souras. No, absolutely not. If a company really has a 
sincere interest in trying to deter and remove child sexual 
exploitation, including child sex-trafficking content, from its 
website, then it will undertake a number of preventative 
measures early on, and it also will deal with ads such as that 
likely will be picturing children or minors. It will not allow 
that content up, and it will report that content as well. It 
will not take a half measure such as noted here.
    I will add, just glancing at this email, this is very 
similar to what Backpage had told NCMEC was part of its 
moderation process regarding children that, quote-unquote, 
might appear to be young.
    Senator Portman. As we talked about, Backpage has a 
practice of editing images and text out of certain ads before 
they publish them. One of the obvious concerns I see here is 
that when you edit an ad and change its wording, of course, you 
are not changing the underlying transaction. You do not change 
the potential for the underlying crime that is being committed.
    I have a few questions for you. To start, were you aware 
that Backpage moderators edited ads in this manner?
    Ms. Souras. We had had previous conversations with Backpage 
regarding the editing of ads as it pertained to photographs. We 
do not recall any discussions with Backpage about moderators 
actually editing text of the ads. We had been told by Backpage 
that when an ad came in, often with multiple photographs, if 
there was a photograph that they deemed to be a violation of 
their terms of service, containing nudity, for instance, or 
graphic sexual activity, that photograph would be pulled, and 
then the ad would move forward into the posting process.
    Senator Portman. So let us assume that the evidence that we 
have uncovered is accurate and there is this kind of editing. 
What concern does that practice give you?
    Ms. Souras. It is incredibly troubling, Mr. Chairman, as 
you noted, on a number of grounds. One is that it definitely 
obfuscates the illegal activity that is the intent of that ad. 
If somebody is posting an ad and saying this is a 15-year-old 
or providing other information that it is a minor who is being 
sold for a sex act and Backpage merely strips the age component 
out or whatever the other indicia of youth might be, or being a 
child, that is definitely, as you noted, hiding the crime 
before it goes public.
    To me, also, from a legal standpoint, it could very much 
create concerns about whether Backpage is still in its 
publisher category or is it shifting now into becoming a 
creator in some ways of these ads as well.
    Senator Portman. I would just say my time is coming to an 
end, but I also think it makes it harder for you to find these 
kids. It is harder to rescue children, because when you do not 
have the full ad, when they are giving you this edited version 
rather than the complete record of the ad, including the photo 
and all the original text that might have existed prior to the 
editing which would help you, it makes it more difficult for 
you to rescue these kids. Isn't that accurate?
    Ms. Souras. That is absolutely correct. If we are able to 
receive all the photographs and all the text, the additional 
information, whether it is a photo that might include the face 
of the child, which could obviously benefit greatly the 
identification of that child, or other information such as a 
phone number or an email address that is in the original ad 
that might have gotten stripped by the Backpage moderator, that 
sort of information is crucial for law enforcement to rescue 
that child and also to pursue the individual that is selling 
that child for sex.
    Senator Portman. Thank you, Ms. Souras. Senator McCaskill.
    Senator McCaskill. Can you explain, Ms. Souras, your 
testimony that there are more stringent posting rules for 
selling a motorcycle than selling a 12-year-old?
    Ms. Souras. I really have no explanation for that, Senator. 
It is what we were told when we met with Backpage. It is what 
is the reality of how you go about posting an ad currently. 
During our meetings between 2010 and 2013 with Backpage, we 
constantly asked there to be some form of Know Your Customer, 
at least know who the individual is in that ad, knowing the 
high incidence of child sex-trafficking ads on that website. We 
pointed out the fact that they are able to do this on other ad 
sections, such as pets and motor vehicles. And we did ask why 
they could not incorporate that element into their escort ads 
as well. We never received a satisfactory answer.
    Senator McCaskill. What was their answer? What excuse did 
they have?
    Ms. Souras. They often would say they would look into it, 
they would discuss it at the next meeting, it would be re-
raised at the next meeting, and it would be as if it was the 
first time we were raising the issue. There was never a 
satisfactory response.
    Senator McCaskill. So the sex ads are the only place where 
they do not require verification?
    Ms. Souras. I have not looked at all the other ad 
categories. We have done, obviously, a lot of deep-dive 
research on the escort ads themselves, and we have noted 
variations between ads. But there are many categories of items 
for sale--apartments for rent, jobs, et cetera. So I cannot 
answer that with specificity.
    Senator McCaskill. That brings me to my next question. Have 
you all done the math? And maybe the staff is busy working on 
this. What percentage of the ads on Backpage are sex-related 
versus the other kinds of advertisements that they pretend they 
are interested in?
    Ms. Souras. NCMEC has not. I know other groups have done 
research on the ads that are on Backpage. NCMEC is really 
responsive to our cases, so when we receive a child sex-
trafficking report, an exploitation report, we go to Backpage 
on that report. Similarly, when we have a missing child case 
where the child may be trafficked, we go to Backpage for that 
child.
    Senator McCaskill. It appears that they are engaging--and, 
of course, we are trying to find out. That is what this is 
about. We are trying to find out the facts. It appears that 
this is a very important part of their business model because I 
do not think anyone could say this is not high risk. So if you 
are engaging in high-risk activity, it is usually because it 
has a great deal of impact on the bottom line.
    Let me ask you, Mr. Roberts, as I said, this hearing is not 
about reaching conclusions about Backpage, about what they have 
or have not done. Instead, it is about affirming the legitimacy 
of this investigation and the legitimacy of the questions that 
we are asking and that we demand answers to as the U.S. Senate.
    In fact, in your amicus brief that you filed with the 
Supreme Court of Washington--both in your amicus brief and the 
NCMEC amicus brief--you explain the importance of receiving 
much of the same information that we are seeking. You stress 
the records of Backpage's ad screeners and its protocols for 
creating an ad, screening for and rejecting ads offering 
children, and flagging and banning repeat offenders.
    Can you explain why it is so critical for anti-trafficking 
efforts for Backpage to produce this kind of material and why 
our efforts to get this material is so essential and why we 
should spare no procedural effort to get at these facts?
    Mr. Roberts. Absolutely, Senator, and thank you again for 
making this effort. Without understanding what is going on, we 
cannot understand whether they are putting in sufficient effort 
to solve the problem. And, again, because Backpage continually 
invokes their own efforts to block children from being 
advertised on their site as the reason that they should be 
allowed to continue operating freely in this area, even as they 
litigate vigorously to protect themselves from laws and 
lawsuits that might hold them accountable, that attempt to hold 
them accountable for having trafficked children on their 
website they invoke these protections. So we need to know 
precisely what these protections are. What are they doing? How 
significant are they relative to the overall volume of 
Backpage's business?
    I think it is important for regulators and members of the 
public to assess how much is Backpage putting into compliance. 
I mean, if this is a tremendously profitable business for them, 
what is an appropriate amount for them to spend trying to keep 
children from being sold for sex?
    Senator McCaskill. They are claiming protection under the 
law while refusing to give the people who represent the law the 
facts that would, in fact, support their claim.
    Mr. Roberts. Right, and that is obviously----
    Senator McCaskill. They are basically saying, ``You should 
trust us. We are not going to give you any information.'' Has 
Backpage ever produced the documents the National Association 
of Attorneys General requested of them in 2011 and 2012? Has 
that information ever been produced?
    Mr. Roberts. I do not believe so, Senator.
    Senator McCaskill. Thank you, Mr. Chairman.
    Senator Portman. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman. And I want to 
thank all Members for their involvement in this really 
distasteful issue but one of transcendent importance. I would 
like to especially thank Senator Heitkamp for her significant 
involvement and advocacy for the children on this really 
unsavory, unpleasant aspect of America that seems to have grown 
over time with the ability to use technology.
    Mr. Chairman, I have been a Member of this Subcommittee for 
many years. I have never known of a witness to refuse a 
subpoena, and I am sure that you will take the necessary action 
to ensure that that is not done with impunity. And I applaud 
you for your actions.
    This is all about money, isn't it, Mr. Roberts? Eighty 
percent of their revenue for Backpage can be directly derived 
from their commercial sex advertising? We are talking about 
money, aren't we?
    Mr. Roberts. It appears so, Senator.
    Senator McCain. And this is the most egregious example of 
that, but it goes on with other websites around the country. 
This just happened to be the most egregious. In fact, two 
Federal courts have reached the conclusion that they are in 
violation of law.
    What do we need to do about the whole situation, which is 
to some degree the result of increased technology and means of 
communication? What do we need to do?
    Mr. Roberts. It is a very complicated question, sir. I can 
tell you about some of the efforts that are taking place. The 
King County prosecuting attorney's office, which is the 
prosecuting attorney for Seattle, the largest office in the 
State of Washington, is doing some real cutting-edge work in 
this area.
    Senator McCain. What about the U.S. Attorney General?
    Mr. Roberts. It has been a couple years since I was with 
the Justice Department, sir. I know that at least in Washington 
State the Department of Justice----
    Senator McCain. So you do not know of any Federal active 
engagement? Do you, Ms. Souras? Do you know of any?
    Ms. Souras. No, sir, I do not.
    Senator McCain. So you do not know of any priority with the 
Attorney General of the United States?
    Ms. Souras. I am not aware of any at this time.
    Senator McCain. Mr. Chairman, maybe one of the results of 
this hearing could be to increase the priority of this issue 
with--since it is a national issue.
    Please proceed, Mr. Roberts.
    Mr. Roberts. Senator, I was just going to mention that our 
local prosecuting attorney's office is working on a project 
that seeks to inhibit the online demand for persons seeking 
sex, particularly with minors, by placing targeted 
advertisements online. In the same way that Backpage apparently 
seeks to become the first search result when someone searches 
for an adult services-type ad online, the prosecuting 
attorney's office is placing ads that ask people, ``Do you 
really want to be buying sex?'' and try to expose them to some 
of the negative effects that take place when they participate 
in the commercial sex economy, describing that women often are 
not there willingly, that there is a great deal of 
exploitation, violence, harm, trauma that comes from these 
efforts. And that has been supported in part by grants from 
private sources, and we believe it has some potential to 
hopefully make some impact.
    Senator McCain. So the fact that this has such a 
devastating effect is the hook, really, that should lead to 
every attempt being made to stop this evil.
    Mr. Roberts. Yes, sir.
    Senator McCain. I thank you, Mr. Chairman, and I hope that 
maybe we could, all of us on this Committee, maybe send a 
message to the United States Attorney General that we need some 
priority on this issue.
    Thank you, Mr. Chairman. I thank the witnesses.
    Senator Portman. Thank you, Senator McCain, and good point. 
Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman and Ranking 
Member, for this very important hearing. In the halls of 
Congress, we frequently represent and talk about some of the 
most powerful people in America, what we are going to do with 
the large banks, what we are going to do, and today we are 
talking about the most vulnerable people in America, small 
children, basically being exploited, being captured, and being 
sold as sex slaves. What could be more horrific than that?
    And we are told by an organization like Backpage.com that 
they are doing everything, they are trying as hard as they can 
to prevent this horrible thing from happening to children. I 
think today we are saying, ``You need to try harder. And if you 
were truly trying as hard as what you could, if you truly 
cared, you would be in this room with us talking about how we 
could, in fact, attack this problem.''
    They are not in this room because they are not in this 
fight with the rest of us. They are not here to protect 
children. They are here to make money, as Senator McCain talked 
about.
    And I want to just kind of tell you what we are seeing in 
North Dakota, because a lot of people think that this is 
something that is removed, it is a city issue, it is something 
that big cities experience. But in North Dakota, this issue has 
hit us, and it has hit us hard, because Backpage.com allows it 
to be invisible. There is nobody walking the street corners. It 
is invisible.
    And so just yesterday, to give you a sense of where we are, 
just yesterday 69 new ads for ``escorts''--and I put that in 
quotes--posted on Backpage in North Dakota alone. Sixty-nine.
    And I want to tell you a story. Earlier this year, a 14-
year-old Las Vegas runaway was rescued from traffickers in 
Minot, after her mother saw emails in her inbox, her email 
inbox, basically advertising her, answering an ad that had been 
posted on Backpage.com.
    Last summer, right across from Fargo, North Dakota, in 
Moorhead, Minnesota, the local law enforcement officials 
responded to a posting on Backpage.com and found a 13-year-old 
runaway from Minneapolis who had been trafficked for sex.
    Now, are we to assume that these are the only minors who 
ever appeared in North Dakota on Backpage.com? Well, you would 
have to be quite naive and foolish to assume that is the fact. 
And you would have to be quite naive and foolish to believe 
that we really have a partner in solving this problem at 
Backpage.com. We do not have a partner there. We have somebody 
who is, I believe, not participating in solving this problem 
but, in fact, capitalizing and becoming filthy rich--and I use 
the word ``filthy'' honestly--filthy rich on Backpage.com.
    So one of the issues that I want to explore in the time 
that I have left is basically the issue of metadata, because we 
have talked a little bit about, scrubbing the ads, rewriting 
the ads. But it is my understanding that metadata is also being 
scrubbed off these ads, which then eliminates some opportunity 
for actually tracing back to the source where these ads are. 
And this is a question for either one of you to explain how 
metadata is being treated on Backpage.com as it relates to 
escort advertising.
    Ms. Souras. Senator, your understanding is correct. When 
NCMEC receives a Backpage ad that has been reported, there is 
not metadata in back of that ad. Metadata, like an Internet 
Protocol (IP) address or other types of electronic data 
information, is incredibly relevant and important as far as 
identifying location, geographic location, and other types of 
information that may be pertinent to connecting the individual 
who took that photograph with the actual photograph and the 
location of that individual. Without that information, it is 
often very difficult for NCMEC, certainly for law enforcement, 
to start to connect that child to that photo.
    Senator Heitkamp. Do you see metadata being removed from an 
advertisement for a car or anything else on Backpage? Do they 
take the metadata off those ads?
    Ms. Souras. We do not see those ad photos in the same way, 
so that would be a difficult question for me to answer.
    Senator Heitkamp. OK. Mr. Roberts.
    Mr. Roberts. In response to the Senator's question, I would 
just add metadata can be especially important in trafficking 
prosecutions because what a lot of people do not realize----
    Senator Heitkamp. I think we all understand how important 
it is. Would there be any legitimate business purpose for 
removing metadata from the advertisement? Commercial purpose?
    Ms. Souras. It is storage intensive, so there is an 
investment that might be required of servers and----
    Senator Heitkamp. And storage is so expensive these days, 
right?
    Ms. Souras. It is getting cheaper.
    Senator Heitkamp. Yes, it is very cheap. And so let us not 
pretend that this is about storage, quite honestly.
    I know I am out of time, but I want to give a shout-out to 
a great partner who has put her reputation and has been a great 
partner to the National Center for Missing and Exploited 
People, and that is Senator McCain's wife, Cindy McCain, who 
has been absolutely a champion and I think has done more to 
raise the issue of Backpage than almost anyone else in this 
country. And so she is a great partner to have and a fierce 
champion for children in this country. And so we are grateful 
that even though she is not at this dais, she is definitely 
here with us today as we address this issue.
    Senator Portman. Thank you, Senator. She was here in the 
form of her husband, and when I asked Senator McCain whether he 
could come by today, he immediately said, ``Of course I am 
going to come because of Cindy.'' And she has been great in 
raising awareness for this issue. I have spoken with her at 
conferences, and she has spent a lot of time and effort 
internationally as well as here in this country on this issue. 
Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Well, thanks for the work. Thanks for all 
you are doing. As a Dad of two daughters, this is important to 
me, as it is important to everyone else on this dais, as it is 
important to the Nation. This is an issue that has to be 
confronted. This is a dark spot in our country that we have to 
be able to both shine light on and to be able to deal with in 
the days ahead. So I appreciate what you are doing because I 
can only imagine it is very difficult, hard work, and it is 
painful to be able to see the images and be able to walk this 
through with a lot of families. So just from us to you, thank 
you for what you are doing for a lot of families around the 
country.
    What is the cost of one of these ads on Backpage? How much 
is a child worth nowadays to run on an ad?
    Ms. Souras. Senator, Backpage rigorously calibrates its ads 
according to the geographic location. So in some large cities, 
like Manhattan, in New York, an ad can go for upwards of $18 or 
more--Boston, Miami, et cetera. In a smaller town, they will 
calibrate lower to satisfy the customer demand there to a few 
dollars.
    Senator Lankford. So a child ad could be a few dollars, or 
it could be $18 or $20?
    Ms. Souras. To purchase the ad, yes.
    Senator Lankford. To purchase the ad, right, to be able to 
put this up, to be able to get this service online.
    Ms. Souras. That is correct.
    Senator Lankford. So Backpage is obviously not the first 
that has dealt with this. Other locations have, other websites 
have. Give me an example of other websites and how they have 
dealt with this and how they have responded once they learn 
that child sex trafficking is happening on their site. How have 
other entities responded?
    Ms. Souras. Most entities deal with this issue, and as we 
know, almost anything can go up on the Internet.
    Senator Lankford. Correct.
    Ms. Souras. So everyone is subjected to this threat. 
However, what a responsible corporate entity does is it takes 
tremendous preventative measures. So it has real moderation, it 
has real review of its ads.
    Senator Lankford. So give me an example of that. What does 
real moderation look like? What have other sites done to say, 
``We want to make sure this does not happen here, so we are 
going to do this''? What are they doing?
    Ms. Souras. They often use hashing technologies or other 
types of technologies such as PhotoDNA, which is a Microsoft 
product. It enables someone to take basically a digital 
fingerprint of an image so that they, as they get new ads, can 
screen new photographs. If they get a hit off an ad that they 
know is a trafficked child, it immediately comes out. It does 
not get posted. It reduces the moderation cost as well. It is 
much faster, more efficient.
    They also have well-trained moderation staffs. The sort of 
instructions that were being provided to the moderators that 
the Chairman went over are not the type of instructions that, 
again, responsible companies with professional moderators 
utilize.
    Senator Lankford. So how expensive is that software? Is 
that millions of dollars to be able to purchase software like 
that?
    Ms. Souras. No, it is not.
    Senator Lankford. So give me a ballpark figure.
    Ms. Souras. Hashing technology generally is a very low cost 
to no cost. There are some costs to implement, of course, into 
a company's systems. The PhotoDNA product is provided at no 
cost.
    Senator Lankford. OK.
    Mr. Roberts. Senator, in response to your question about 
the relative cost, you might be interested to know our local 
law enforcement has been involved in placing sting ads onsites, 
including Backpage, that appear to be advertisements for young 
persons who could be bought for sex. And in response to one of 
these ads that might cost $18 or so, law enforcement sees 
literally hundreds of potential responses within a few hours of 
it being posted, which should give you some impression of why 
it is so lucrative for the traffickers.
    Senator Lankford. So knowing all that and what you are 
trying to do in Washington State--you all have been at this for 
a while--how do you measure success? How do you measure 
progress, that we are achieving progress because we are seeing 
this? What metrics are you looking for?
    Mr. Roberts. Well, it is difficult to measure in part 
because we do not have great statistics as to what is going on, 
and that is one of the things that we as a State have been 
emphasizing, is that we need to better study what the scope of 
the trafficking problem is.
    Our indication based on our most recent study from about 
2008 locally was that we believed we had something in the 
neighborhood of 300 to 500 minors being trafficked for sex on 
an annual basis in the Greater Seattle area. So if we could 
improve upon those numbers the next time we took a survey, we 
would know we were making progress. In the meantime, we just 
have to intercept as many child victims as law enforcement has 
the resources to do. We wish we had more resources.
    Senator Lankford. So you are bailing water at this point on 
a ship that is taking on a lot of water, and you are bailing 
basically for staying afloat. That becomes the key. So I 
assume, as you mentioned before, you have a lot of partners 
working on this, nonprofits, churches, other agencies. The 
question from Senator McCain about the U.S. Attorney and the 
Department of Justice, I would hope that they are stepping in 
full force on this as well, though it sounded like it was 
unknown what role they are playing at this point. We can ask 
them, and obviously they can tell us what they are doing on 
this. But are there partners that are missing? Industry 
obviously has to be one of those partners. We are asking 
Backpage to actually be a responsible corporate citizen, to 
actually take on something that is clearly illegal away from 
their business model. What partners are you missing?
    Mr. Roberts. Industry is improving quite a bit, sir. There 
have been efforts in the hospitality industry to train staff 
members on recognition of trafficking situations. We definitely 
would like to see better responses from organizations like 
Backpage.
    I would say in the Seattle area there is a very strong 
presence led by the local U.S. Attorney's office, and there has 
been grant funding by the Department of Justice for that 
effort. The Washington Coalition Against Trafficking and the 
Washington Anti-Trafficking Response Network both have 
significant Federal funding and significant participation from 
Federal law enforcement, including the Federal Bureau of 
Investigation (FBI) and Homeland Security Investigations (HSI). 
So we feel that the Federal Government and the Justice 
Department are a valuable partner in the State of Washington.
    Senator Lankford. Good, as they should be in this area 
especially.
    Mr. Chairman, I yield back.
    Senator Portman. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    I wanted to ask, Ms. Souras, about the Communications 
Decency Act, and as I understand it, Backpage is trying to hide 
behind this act, and I want to understand, as I look at--as 
we--and I am very glad, by the way, that the Chairman and 
Ranking Member are doing this investigation because I think it 
is incredibly important. But I want to understand how under 
that particular act Backpage can rely on that act to shield 
itself from the activities that, in my view, seem to be very 
clearly facilitating trafficking in children and other illegal 
activities. So you are lawyer.
    Ms. Souras. Yes.
    Senator Ayotte. I wanted to get your thoughts on this.
    Ms. Souras. Thank you, Senator. You are correct. Backpage 
has really used the CDA as a flag, as a shield against the 
current lawsuits and threats of prosecution that may have 
arisen from time to time. Their basic argument under the CDA is 
that they are a mere publisher, so a bulletin board that 
someone might put up in a supermarket; they are not responsible 
for the note cards that people put on that bulletin board 
selling certain items.
    That seems very unrealistic when we are thinking that the 
item for sale here is a human being and potentially a child. 
But that is the basic component under the language of the CDA, 
which is a fairly old statute, was created really to engender 
growth and encourage growth of the Internet, and it serves a 
tremendously important purpose in that regard, but did seek to 
protect Internet providers from, let us say, rampant defamation 
suits and things of that sort because there was so much public 
content going on to some of these sites. So Backpage takes 
advantage of that and says, ``We are a mere publisher. We just 
provide the mechanism. We are not responsible for what people 
put on.'' That is why some of this information that I 
understand is coming out of the Committee's investigation 
regarding the editing of ads is crucial and I think will be an 
area that many attorneys and prosecutors will be focusing on 
after this hearing.
    Senator Ayotte. In other words, information that they 
themselves may be editing ads so, therefore, are quite aware of 
the content of the fact that what they are posting is involving 
the illegal solicitation and horrific solicitation of children 
and other illegal activities, other trafficking activities that 
are against the law.
    Ms. Souras. Absolutely, and are also crossing that boundary 
between a mere publisher and participating in the creation of 
that ad through their editing.
    Senator Ayotte. So you mentioned the CDA, and they are 
using it as a shield. Obviously, we have talked today, as I 
understand your testimony, that other providers certainly are 
not using the CDA in the way that Backpage is and are taking 
more affirmative steps to make sure that there are not these 
times of horrific, illegal ads on their sites. Isn't that true?
    Ms. Souras. That is correct.
    Senator Ayotte. So there is a huge contrast there. Do you 
think that we as a Committee, as we look at this issue, need to 
revisit or look at the CDA and how it is being used in light of 
the current State of the Internet given that it is an older 
statute and given that we have this Backpage using this statute 
in a way, obviously, they are posting these ads of trafficking 
of children, which is just appalling?
    Ms. Souras. I know there has been tremendous discussion on 
the Hill, in the Senate and the House, regarding the CDA, 
especially with a focus on anti-trafficking measures. NCMEC has 
been very involved in speaking with a number of members and 
their staffs regarding the CDA and how is it that it could be, 
let us say, brought up to date a little bit or altered a bit so 
that unique sites like Backpage who are not going to undertake 
the usual corporate protections could not see that as a defense 
for them.
    Senator Ayotte. I am a strong proponent of obviously all 
the Internet and the entrepreneurship and great things we have 
seen from it. But I cannot believe that when the CDA was 
enacted, the lawmakers who passed it could have envisioned a 
website like Backpage and really they are using this as a 
shield for disgusting types of illegal activity being posted 
there. So I hope that we will look at that issue as well as a 
Committee to make sure that they cannot use this statute in an 
improper way as a shield.
    Thank you.
    Senator Portman. Thank you, Senator Ayotte.
    We will go another round, if that is OK. I know that there 
are Members who are still here who have questions, and I 
certainly do. Again, we appreciate your testimony so far, and 
it has been troubling in the sense that you have made it clear 
that this technology is increasing the risk to our kids and 
that you are not getting the cooperation that you certainly 
sought, which is unfortunately what the experience has been 
with this Subcommittee in lack of cooperation.
    You did testify that over the course of 3 years, Ms. 
Souras, you worked with Backpage regarding child sex 
trafficking on its website and provided them with a number of 
specific recommendations of how they could utilize their 
available technology but do it in a way that would reduce child 
sexual exploitation. I think you have mentioned a couple of 
those today, but I would like you to tell us specifically what 
recommendations did you make that Backpage chose not to adopt.
    Ms. Souras. Certainly the most egregious one is the one I 
mentioned, which is that they do not remove an ad even after 
they have reported it for child sex trafficking, and even if a 
parent has written in and said, ``This is my child in this 
ad.'' So that certainly is the most egregious.
    Also, their failure to really introduce any one of a 
variety of, again, the Know Your Customer or the verification 
models. We are all on the Internet, and we know if we go to 
even a cooking site for a recipe or to make a purchase, we 
often will be required to authenticate ourselves in some way, 
put in an email or a mobile number and get a text to verify 
back that we are who we are and then we can proceed to use that 
content on the Internet--very simple mechanisms used for very 
innocuous content. As the Senator mentioned, this is very high 
risk content when you are talking about escort ads and its 
proclivity for misuse in trafficking and especially in child 
sex trafficking.
    So one thing we recommended was validation of a telephone 
number, a mobile number, an email address of some sort. They 
have not done that to our knowledge.
    Also, the capture and reporting through the CyberTipline of 
the IP address, again, when you do not have the metadata, an IP 
address is crucial to try to locate the geographic location of 
that ad. Especially for a trafficking crime when a child is 
moved from city to city, IP addresses could enable you to 
better track where that child is being trafficked.
    Again, as I mentioned before, the use of a variety of 
different types of hashing technologies, PhotoDNA or other 
commercial hashing technologies, but really utilizing it, not 
simply hashing your photographs and keeping the hashes dormant. 
You must utilize those hashes if you are really going to have a 
successful prevention mechanism to screen your ads, to try to 
prevent content that you know has been reported as child sex 
trafficking from ever going up, so a moderator is never seeing 
that ad and making the call, is it really too young or not, in 
the words of the Backpage managers.
    Also, again, just flagging the various identifiers in an 
ad. An ad can have a cell phone, a location, a pet name of some 
sort, an email address--these are important identifiers. 
Traffickers often are marketing various girls or boys on the 
website for trafficking. By capturing that information from one 
ad and using it to screen through the other ads on the system, 
Backpage would be able to link ads that might all be connected 
to one trafficker--another suggestion that NCMEC made which 
Backpage to our knowledge has not adopted and told us that it 
would not adopt.
    There are a few others. Those are some of the primary ones.
    Senator Portman. Well, thank you. And all those would go 
toward you being able to rescue these kids, all of us being 
able to rescue our children. They also go to law enforcement, 
though, and being able to prosecute these cases.
    Ms. Souras. Absolutely.
    Senator Portman. The first example you used of them not 
pulling ads, earlier you said that a mother finally sent them 
an email saying, ``For God's sake, she is only 16.'' So for all 
of us who are parents or grandparents, think about that. ``For 
God's sake, she is only 16.'' And yet they refused to pull the 
ad.
    And with regard to finding these children, again, you all 
have been very helpful to us in Ohio. We appreciate that, and 
we have worked with you on legislation to help finding 
exploited children and missing children. But think about that. 
Not being able to provide that information to law enforcement 
means you cannot find many children who otherwise could be able 
to be found. Again, the heartbreak of knowing that that 
information is out there somewhere, and yet a supposedly 
legitimate commercial concern will not provide you the 
information or provide it to law enforcement to be able to find 
your child, to me this is what this hearing is really all 
about. It is about these kids and about this practice that 
keeps you from doing your job at the National Center, but also 
keeps so many parents and grandparents from being able to save 
their children and rescue their children.
    With that, Senator McCaskill.
    Senator McCaskill. Mr. Roberts, could you briefly outline 
for the record why you believe Backpage operates outside the 
immunity of the Communications Decency Act?
    Mr. Roberts. Well, Senator, I do not have enough 
information yet to definitively say one way or the other, but 
the concern that we expressed in our amicus brief is obviously 
that they are exceeding the bounds of the exemption. In other 
words, by actually participating in drafting the ads, by making 
themselves a go-to location for ads advertising prostitution 
among such sites, and by crafting essentially the message that 
is being sent to try to keep it so that it does not involve or 
does not appear to involve----
    Senator McCaskill. Children.
    Mr. Roberts [continuing]. Child trafficking. Exactly.
    Senator McCaskill. So their engagement in editing and 
shaping the content is at this point--because we are all 
hitting walls in terms of getting good information from 
Backpage--is the reason.
    So assuming that we eventually through legal processes get 
the information, I am assuming that this is the kind of factual 
scenario that could, in fact, lay an adequate foundation for 
the Racketeer Influenced Corrupt Organizations (RICO). Would 
you agree with that?
    Mr. Roberts. I think that is a possibility.
    Senator McCaskill. Because this is an enterprise. This is 
not one activity. This is an enterprise of activity.
    I want to give a shout-out to you and your colleagues and 
the literally hundreds and hundreds of prosecutors across the 
country that are prosecuting these cases against traffickers, 
against pimps, and against customers. I appreciate the comments 
of Senator McCain, but I know for a fact that there are many 
U.S. Attorney's Offices that are actively engaged in a 
cooperative fashion with local law enforcement and bringing 
these cases. The case I referenced in my opening statement was, 
in fact, filed by a U.S. Attorney's Office against the two 
traffickers that were taking these young girls from truck stop 
to truck stop.
    By the way, these pimps that take these girls from truck to 
truck call them ``lot lizards,'' for the record, which is as 
distasteful as the underlying practice of pimping these young 
women out.
    One of the things that is interesting to me is how many 
stings go on on Backpage. It is the go-to place for law 
enforcement to place sting ads, and there are literally 
thousands of cases moving through the criminal justice system 
right now where customers have been caught in stings.
    Have you all tried at NCMEC ever to place an ad in the 
section of Backpage saying to people who are interested in 
escorts and sex, ``You should know this site is a No. 1 
location for sting activity, and you have a high likelihood of 
being prosecuted''? Has anybody ever tried to place that ad? 
Because it seems to me that we have two problems here. We have 
the Backpage problem, we have the criminal element of 
traffickers problems, and then we have the demand problem, and 
the fact that too many people believe they can do this in 
anonymity, that they can try to access young children through 
the Internet.
    What efforts have you been privy to, Ms. Souras, of the 
various organizations that are trying to do good in this area 
to inform would-be customers that the chances that they are 
responding to an ad that has a law enforcement officer on the 
other side go dramatically up when they think that they are 
going to be successful at being anonymous?
    Ms. Souras. Thank you, Senator. I am certainly aware that 
some of my nonprofit colleagues at other organizations do 
engage in that kind of advocacy, or attempt to on Backpage. It 
is my understanding that some of the organizations that have 
tried to place messages such as you just detailed, those ads 
have been blocked from the escort section or removed at some 
point. So it is very difficult for a nonprofit organization to 
place an advocacy message or a public awareness message for a 
potential buyer on Backpage. That is my understanding.
    Senator McCaskill. Well, then we need to make sure that, as 
we try to get information from Backpage, we include that 
question: How many times have you blocked an ad informing 
would-be customers that there is a likelihood that the ad you 
may be responding to may, in fact, be law enforcement?
    Ms. Souras. Absolutely, and I am happy to refer the 
Committee to some of those nonprofits.
    Senator McCaskill. That would be terrific because, 
factually, I think as a prosecutor, that would be very 
important to a case I was trying to bring.
    Mr. Roberts. And, Senator, placing ads of that type is one 
of the efforts of the King County prosecuting attorney's 
office. However, I believe they have been focusing on 
purchasing ad results from search engines, like Google and 
Microsoft.
    Senator McCaskill. Right. I know there are lots of 
different avenues to try to get at this incredible problem. 
Well, thank you. I think you all have made a very powerful case 
as to why it is important that we be tenacious and refuse to 
give up. And let me just say for the record that I know how 
dedicated the Chairman is to this issue; I know how dedicated I 
am to this issue; I know how dedicated Senator Heitkamp is to 
this issue. And if Backpage thinks they are going to go quietly 
into the night, they are sadly mistaken.
    Senator Portman. Senator Heitkamp.
    Senator Heitkamp. Mr. Chairman, again, I want to maybe give 
another shout-out to an organization called Truckers Against 
Trafficking. They are working to deal with kind of a culture 
that needs to change within that subset, and they are doing 
terrific work in terms of educating and hopefully are making 
strides along with the rest of you in addressing the demand 
problem, because we know even as reprehensible as what all of 
this is, as long as there is a demand, we are going to find the 
next iteration, the next generation, and so we need to be on 
top of that as well.
    Senator Ayotte and the Chairman and Ranking Member, as we 
look kind of going forward, we are looking at things that we 
can do today. We are going to continue to be as tenacious as 
what we possibly can on this investigation. But I want to talk 
about maybe a couple ideas that could add to the effort here 
legislatively. And I think, Ms. Souras, in your testimony you 
mentioned the fact that current Federal law requires entities 
defined as electronic service providers report apparent 
instances of child pornography that they are being made aware 
of. So that is Federal law. But the same requirement does not 
exist for apparent instances of child sex trafficking.
    Why do you think that is? Do you think it would make a 
difference if that law were changed to include child sex 
trafficking? And has this issue ever been raised before 
Congress? And has there been a broader discussion? Is this an 
additional tool that we could be using and looking at?
    Ms. Souras. At NCMEC we think this would be a tremendous 
additional tool. I think historically it was not in the initial 
statutory requirement that you reference, perhaps for a number 
of reasons. Perhaps the focus was not so much on instances of 
online trafficking as it was on child pornography at that time, 
and it has done wonders to address that problem.
    I also think child-trafficking ads or content are somewhat 
inherently more difficult to identify than a child pornography 
image where you simply have a photo and you know if it is 
apparent child pornography or not. A child sex-trafficking ad 
or content will be a mixture often of text and ads, photographs 
as well.
    That being said, we have had some anecdotal discussions 
with staff on the Hill regarding that gap, that small gap in 
the reporting statute. It is a change and a further discussion 
that NCMEC would welcome participating in. We believe if there 
is a requirement to report, again, only apparent or child sex-
trafficking content that a server may become aware of--they 
have no obligation to search, of course, for any of this 
content. If they did start reporting that to NCMEC, it would 
not only increase our ability to provide that information 
through to law enforcement and assist families and victims in 
the process; it also, I think, would go very far to assisting 
in our prevention measures. We would see more ad content and be 
able to develop prevention measures that would address the 
content we are seeing.
    Senator Heitkamp. And legitimate actors would err on the 
side of advancing that kind of content. Correct?
    Ms. Souras. Yes, correct.
    Senator Heitkamp. People who really cared about this 
problem would, in fact, welcome an opportunity to have someone 
who is a partner with them to stop this from happening. 
Correct?
    Ms. Souras. Absolutely, yes.
    Senator Heitkamp. I want to, I think, really thank all the 
advocacy groups and all of you who have been on the front end 
of this, who have been toiling, and we know that this is not 
just a problem for our country. But as we work through these as 
a defender of the First Amendment and as we work through that 
balance, the work that we do here is work that will have 
repercussions not just in our country but across the world.
    And so I really want to thank the Chairman and the Ranking 
Member for making this a priority for the Committee, and I want 
to thank you for your testimony. It has been great to see you 
all again, and if there is anything more that we can do or that 
you think of, I hope that you will reach out either to the 
Committee or individual Members who have been working on these 
issues.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Heitkamp, and thank you 
for your leadership on this. And as you can see, all of my 
colleagues on this Subcommittee have a passion for this issue, 
an intense interest. I think what we have been able to find 
today are some very specific ways in which to deal with the 
online issue, and, Ms. Souras, in particular, your laundry list 
of things that you have asked Backpage to do that they have not 
done certainly would help both in terms of finding missing 
kids, as we say, prevention, as you say, and in terms of law 
enforcement and prosecutions. There are also other things that 
can and should be done with regard to sex trafficking. We did 
pass legislation, as you know, here in Congress that was signed 
into law earlier this year. You were very involved with that, 
and you worked with us particularly on some of the missing 
children issues who are the most vulnerable to trafficking, but 
also the demand side issue. We really ought to make some 
progress at the Federal level for the first time in 15 years. 
And then, finally, we were able to change some of the Federal--
the bias in the legislation to say that these young women and 
men, girls, boys, who are involved in this are indeed victims 
and should not be treated as criminals but, rather, as victims 
so that we can deal with their trauma, which, as you said 
earlier, is long term, sometimes lifelong.
    And so this is, I think, an opportunity for us not just to 
talk about Backpage and the obvious disappointment all of us 
have and their inability to be here today, but also their 
unwillingness to cooperate more generally with this issue. But 
it is also a chance to talk about efforts we can take going 
forward to combat sex trafficking and to try to put an end to 
sex trafficking in this country.
    So we thank you very much, both of you, for your testimony 
this morning. Mr. Roberts, thank you for your hard work. I know 
you will keep it up nationally, working with all the Attorneys 
General.
    And, Ms. Souras, and for John Walsh and John Clark, who are 
here from the National Center, thank you for your leadership on 
this, and to all the groups who are out there in the trenches 
working on this issue every day, and a particular shout-out to 
those who are embracing these victims and helping them to get 
through this trauma. Having met with victims in Ohio, some of 
whom are only recently going into a treatment and recovery 
process, others who have been at it for years, this is the most 
heartbreaking and difficult part of this whole process. And so 
thanks to all those groups that are involved, and individuals.
    We would excuse you, and we are now going to call the 
second panel.
    [Pause.]
    I would like to call the CEO of Backpage, Carl Ferrer.
    [No response.]
    We had hoped Mr. Ferrer would be here, but he has refused 
to come. And we have talked a lot about the underlying sex-
trafficking issue here this morning, a horrific practice. It 
goes on, sadly, here in the 21st Century, really one of the 
great human rights causes of our century.
    We have also talked about the fact that we have not 
received cooperation from Backpage in looking into some very 
legitimate questions that have been raised, and our report lays 
out enough evidence to make it clear why we need the 
information.
    At this point in the hearing, we had planned to hear 
testimony from Backpage's CEO, Mr. Carl Ferrer. Mr. Ferrer has 
been under a legal obligation to appear before the Subcommittee 
since October 1, and the Subcommittee notified him by letter on 
November 3 that his appearance was scheduled for this morning.
    The same day we sent the letter, the Subcommittee staff 
called Mr. Ferrer's lawyers to confirm that Mr. Ferrer should 
plan to appear and that we could not accept logistical excuses 
for not showing up. Mr. Ferrer's lawyers did not mention any 
conflict of interest.
    Last Friday, less than a week ago, Mr. Ferrer's lawyers 
asked us to excuse his appearance because he was traveling and 
that, if called to testify, he would plead the Fifth Amendment. 
They did not say it would be impossible for Mr. Ferrer to 
appear. The Subcommittee denied that request on Monday.
    A witness has the right to refuse to answer questions that 
may incriminate him, but that right belongs to the witness, not 
his lawyers. It is appropriate to require a witness himself to 
appear, hear the questions put to him, and to exercise his 
constitutional right not to answer any questions he believes in 
good faith may tend to incriminate him. Again, as I said 
earlier, this Subcommittee would respect any valid assertion of 
the Fifth Amendment privilege. But there is no privilege not to 
show up.
    Yesterday, around noon, however, Mr. Ferrer's lawyers wrote 
to Senator McCaskill and myself informing us that Mr. Ferrer 
would not appear today because he is on an international 
business trip. This is truly extraordinary. You heard from 
Senator McCain earlier who said that, in his many years on this 
Subcommittee, he has never seen a situation where a witness 
simply refused to appear. It is not acceptable for a witness 
under subpoena to wait until the day before his appearance to 
announce unilaterally that he will be out of the country and 
refuse to appear.
    Senator McCaskill and I, of course, are conferring about 
next steps, but we both consider Mr. Ferrer's refusal to appear 
here a clear act of contempt.
    I would now like to turn to Senator McCaskill if she would 
like to add a few words on this point.
    Senator McCaskill. Well, the laws of this country should 
apply to everyone, and we should take all steps necessary to 
make sure that we fulfill our obligations under the law. And 
under the law, the Senate is entitled to ask witnesses to 
appear before it and for them to answer questions and provide 
information.
    So I think it is important that we be steadfast in our 
resolve to get the information that we need in order to make 
sure that the public policy in this country is effective when 
it comes to children being victims. This is not an exercise in 
having a hearing. This is an exercise in making sure that we 
have done everything in the law to protect children. It is not 
any more complicated than that. And any witness who refuses to 
answer the lawful requirement of testimony and providing 
information must be held accountable for that.
    And so we will be careful and cautious about using the 
procedures available to us, but we will use them to ensure that 
this effort is robust and informed and that ultimately the 
result is that more children and more families feel the comfort 
that their government is doing everything it can under the law 
to protect them.
    Senator Portman. I thank the Ranking Member. And as you 
see, we are partners in this effort, and we will not be 
deterred.
    I would also like to thank the Chairman of this Committee, 
the full Committee on Homeland Security and Governmental 
Affairs (HSGAC) Chair and Ranking Member for their help. 
Senator Johnson and Senator Carper have not just supported our 
efforts this morning. They have released a joint statement 
which commends PSI efforts in this regard, and I would now like 
that statement to be made part of the record. They are 
supporting us not just on the important work we are doing to 
combat human trafficking, but also with regard to any actions 
we might take with regard to Backpage and their unwillingness 
to cooperate.
    Senator Portman. We began this bipartisan investigation 
with a very simple goal: better informing Congress about the 
issue of sex trafficking, how to combat it through smart 
reforms, including legislative actions. We will not be deterred 
from that inquiry. If Backpage fails to change course and 
comply with the Subcommittee's subpoena, the appropriate next 
step is to pursue contempt proceedings. This is a step the 
Senate has not taken in 20 years--as I said earlier, this is 
extraordinary--and PSI has not taken for more than 30 years. 
But, regrettably, Backpage's conduct has invited this very 
unusual action.
    When dealing with a party acting in good faith, we would be 
inclined to pursue what is known as civil contempt. That 
involves a resolution authorizing the Senate Legal Counsel to 
bring a civil lawsuit to compel Backpage to comply. But I think 
I speak for Senator McCaskill and myself when I say this case 
appears to be more serious than a good-faith disagreement. It 
is not about questions of privilege.
    As I noted, Backpage's lawyers have told PSI that the 
company has not even bothered to search for and identify the 
documents responsive to the subpoena. And with no lawful 
excuse, the company's CEO has defaulted on his obligation to 
appear before the Subcommittee today.
    These are not actions of a party acting in good faith. He 
could have come. He could have pleaded the Fifth. He chose not 
even to come. Rather, it is evidence of willful defiance of the 
Senate's process.
    For those reasons, after consulting with our staff and 
Senate Legal Counsel, Senator McCaskill and I believe this case 
may justify a referral to the Department of Justice for 
criminal contempt. We will consider the appropriate course in 
the next few days.
    Again, I would like to thank the witnesses and my 
colleagues for their participation today in this very important 
hearing. The hearing record will remain open for 15 days for 
any additional comments or questions from any of the 
Subcommittee members.
    And, with that, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
